                       UNITED STATES DEPARTMENT OF EDUCATION

                                    OFFICE OF INSPECTOR GENERAL

                                         61 FORSYTH STREET, ROOM 18T71 

                                             ATLANTA, GEORGIA 30303


        Telephone: (404) 562-6470                                           Fax: (404) 562-6509



MEMORANDUM

DATE:          December 30, 2003

TO:            Jack Martin
               Chief Financial Officer
               Lead Action Official

               Sally Stroup 

               Assistant Secretary      

               Office of Postsecondary Education          


FROM:          J. Wayne Bynum               /s/ J. Wayne Bynum
               Regional Inspector General for Audit
               Office of Inspector General

SUBJECT:       FINAL AUDIT REPORT
               Stillman College’s Administration of the Title III, Part B, Strengthening
               Historically Black Colleges and Universities Program
               Control No. ED-OIG/A04-D0013


You have been designated as the action officials responsible for the resolution of the findings
and recommendations in the attached final report. We have also provided a copy to the auditee
and to your Audit Liaison Officers.

The Office of Inspector General is required to review and approve your proposed Program
Determination Letter (PDL) and the Audit Clearance Document (ACD) before the PDL is
forwarded to the auditee. Please provide these documents for review, electronically if you wish
or by mail, to:

               J. Wayne Bynum

               Regional Inspector General, Region IV 

               U.S. Department of Education        

               Office of Inspector General 

               61 Forsyth Street, Room 18T71 

               Atlanta, GA 30303 

Jack Martin and Sally Stroup                                                             2



In accordance with the Inspector General Act of 1978, as amended, the Office of Inspector
General is required to report to Congress twice a year on the number of audits unresolved. In
addition, any report unresolved after 180 days from the date of issuance will be shown as
overdue in our reports to Congress.

In accordance with the Freedom of Information Act (5 U.S.C. § 552), reports issued by the
Office of Inspector General are available to members of the press and general public to the extent
information contained therein is not subject to exemptions in the Act.

If you have any questions, please contact me at 404-562-6477 or Assistant Regional Inspector
General Mary Allen at 404-562-6465.



Attachment
                   UNITED STATES DEPARTMENT OF EDUCATION

                                  OFFICE OF INSPECTOR GENERAL

                                      61 FORSYTH STREET, Room 18T71 

                                          ATLANTA, GEORGIA 30303


    Telephone: (404) 562-6470                                                                     Fax: (404) 562-6509


                                               December 30, 2003

Dr. Ernest McNealey
Stillman College
P.O. Box 1430
Tuscaloosa, AL 35403


Dear Dr. McNealey:

This Final Audit Report (Control Number ED-OIG/A04-D0013) presents the results of our audit
of Stillman College’s compliance with the administration of the Title III, Part B, Strengthening
Historically Black Colleges and Universities Program. Audit coverage included the period
October 1, 1997, through, March 31, 2003. The audit objective was to determine whether the
College complied with Education Department General Administrative Regulations (EDGAR) and
Departmental laws and regulations regarding Title III cash management and grant expenditures.
We found that the College drew down more Title III funds than it expended for program activities
and did not inform the Department of changes in key personnel.


                                           AUDIT RESULTS 


Finding No. 1 – The College Drew Down More Title III Funds Than It
Expended for Title III Program Activities
The College drew down more Title III funds than it needed for program expenditures. This
occurred because the College’s Title III reconciliation process was not adequate. As a result, the
College drew down $76,151 in Title III funds that it did not expend for its Title III activities.

The regulations at 34 C.F.R. § 74.22(b)(2) and (b)(3) (2002)1 state:

         Cash advances to a recipient organization are limited to the minimum amounts
         needed and be timed to be in accordance with the actual, immediate cash


1
 Although the 2002 regulations are generally quoted in this report, the 1997 through 2003 regulations have the same
requirements.
Dr. Ernest McNealey                            FINAL REPORT                                      Page 2 of 10
ED-OIG/A04-D0013


           requirements of the recipient organization in carrying out the purpose of the
           approved program or project.

           The timing and amount of cash advances are as close as is administratively
           feasible to the actual disbursements by the recipient organization for direct
           program or project costs and the proportionate share of any allowable indirect
           costs.

As of April 2003, the College had drawn down more Title III funds than it expended for its closed
1997-2002 grant. As a result, drawdowns exceeded expenditures by $76,151.2 Table 1.1 below
illustrates the differences in drawdowns and expenditures for the 1997-2002 Title III program
(10/01/1997 - 09/30/2002) by the College’s fiscal year (July 1st through June 30th).

         Table 1.1 – 1997-2002 Title III Grant Drawdowns and Expenditures by the College’s
                     Fiscal Year
                Dates            Drawdowns       Expenditures  Overdraws/(Underdraws)*
          10/01/97-06/30/98         $ 645,146       $ 716,889                   $ (71,743)
          07/01/98-06/30/99            615,000         859,438                   (244,438)
          07/01/99-06/30/00          1,327,262       1,049,621                     277,641
          07/01/00-06/30/01          1,197,292       1,053,373                     143,919
          07/01/01-06/30/02          1,565,192         928,716                     636,476
          07/01/02-09/30/02            397,370         331,972                      65,398
           Adjustments**                     0         731,102                   (731,102)
                             Net Overdraw                                          $76,151
           *An overdraw indicates that the College drew more funds than it needed to reimburse the
           expenditures it made. An underdraw indicates that the College drew less funds than it needed to
           fully reimburse the Title III expenditures it recorded.
           ** Adjustments are expenditures that the College had not recorded in its Title III accounting ledgers
           due to error.

Prior to any adjustments, the difference between drawdowns and expenditures was $807,253. The
College provided documentation to show that this amount should be decreased by expenditures
made between April 2000 and July 2002 totaling $819,962 that had not been entered into the
Title III ledgers as of the time of our audit. We reviewed this information and determined that
$731,102 of these expenditures were allowable Title III expenditures that should have been
recorded in the College’s accounting ledgers. We added these expenditures back to the College’s
total Title III expenditures for the period in the “Adjustments” line item in the table above. At the
completion of our fieldwork, the College had not adjusted its accounting ledgers to record these
Title III expenditures.

These expenditures were not recorded in the College’s accounting ledgers for the following
reasons:

2
    As of March 31, 2003, drawdowns for the 2002-2007 Title III grant had not exceeded expenditures.
Dr. Ernest McNealey                   FINAL REPORT                               Page 3 of 10
ED-OIG/A04-D0013




    • 	 The College incurred expenditures in the amount of $326,887 between April 2000 and
        October 2001 that it paid for with institutional funds. We reviewed these expenditures and
        determined that $238,027 of these expenditures were allowable Title III expenditures and
        should have been paid with Title III funds.

    • 	 The College's auditors transferred $493,075 in Title III expenditures for equipment out of
        the Title III ledgers in June and July 2002 and recorded these items as long-term assets on
        the College's financial statements. However, these were allowable Title III expenditures
        and should have remained on the Title III ledgers.

Therefore, the College drew down $76,151 more Title III funds than it expended for program
purposes ($807,253 difference between drawdowns and expenditures less $238,027 allowable
expenditures less $493,075 allowable expenditures recorded as long-term assets).

We determined that the overall cause for the College drawing down excessive funds was the lack
of an effective control procedure for reconciling the total amount of drawdowns and expenses on a
cumulative basis. The College used a yearly reconciliation worksheet that included all funds
drawn down and posted for the current fiscal year. However, it did not include drawdowns and
expenditures from previous fiscal years. As a result, funds that were over- or underdrawn in the
previous fiscal year were not taken into consideration when the College drew down grant funds in
the current fiscal year. In addition, the College's auditors erroneously transferred allowable
Title III expenditures out of the Title III accounting ledgers, which caused the College's fund
availability figures to be misstated in the accounting system.

RECOMMENDATIONS

We recommend that the Chief Financial Officer, in conjunction with the Assistant Secretary for
Postsecondary Education, require Stillman College to:

1.1 	 Return $76,151 not expended for the closed 1997-2002 Title III grant.

1.2 	 Adjust its Title III ledgers for the 1997-2002 grant to record $731,102 in allowable
      expenditures to the Title III grant.

1.3 	 Adopt a reconciliation process that identifies the amount of drawdowns and expenditures
      that have accumulated for the Title III grant for the current fiscal year, as well as for the
      entire grant period to avoid drawing Title III funds in excess of accumulated expenses.

STILLMAN RESPONSE

On December 3, 2003, the College’s Business Office Manager provided a written response to the
draft report (see attachment). The written response stated that the College had implemented
Dr. Ernest McNealey                    FINAL REPORT                               Page 4 of 10
ED-OIG/A04-D0013


procedures to ensure that Title III expenses and revenue are properly coded and recorded to the
correct grant year. As part of the new procedures, a monthly reconciliation is done to make certain
that all funds drawn down reflect expenses paid or will be paid within three business days. In light
of the fact that the Title III award year crosses the College fiscal year, a separate reconciliation
spreadsheet is done for each award year, allowing the College to correctly match the expenses for
a particular award year with funds requested. Between April 2000 and October 2001, the College
incurred Title III expenditures in the amount of $326,887, which were paid with institutional
funds. OIG determined that $238,027 were allowable Title III expenses. The College would like
to know why the remaining $88,860 was disallowed. The College has asked its auditors to note
the $731,102, which was taken off the ledger as part of the 2002 audit, as allowable expenditures
for Title III in the 2003 audit reports.

OIG COMMENTS

The College provided detail information for 11 expenditures totaling $326,887 that it claimed were
allowable Title III expenditures paid with institutional funds and that had not been transferred to
the Title III accounting ledgers. We reviewed the Title III accounting ledgers and found that 4 of
the 11 expenditures had already been transferred into the Title III accounting ledgers. We did not
include these four expenditures totaling $88,860 (three for $20,000 each and one for $28,860) as
part of the total allowable Title III expenditures because the expenditures had already been
recorded in the Title III accounting ledgers and should not be counted twice. We did not change
our figures in the final report.

We appreciate the College’s effort to strengthen its procedures to improve its accounting practices.
The actions described in the College’s written response should help ensure that it meets
Departmental requirements regarding the drawdown and expenditure of Title III funds. The
College’s revised procedures should also ensure that all Title III expenditures incurred are
properly recorded in the College’s accounting ledgers and reported in its annual audit.

Finding No. 2 – The College Did Not Inform the Title III Program Office of
a Change in Key Personnel

The College did not notify the Title III program office that it had changed its Title III Project
Director. As a result, the College was not in compliance with EDGAR. The Business Office
Manager stated that this was due to an oversight on the part of the College.

The regulations at 34 C.F.R. § 74.25(c)(2) (2002) state:

       For nonconstruction awards, recipients shall request prior approvals from ED for
       one or more of the following program or budget related reasons: (2) Change in a
       key person specified in the application or award document.
Dr. Ernest McNealey                   FINAL REPORT                               Page 5 of 10
ED-OIG/A04-D0013


The previous Project Director left in January 2003 and, at that time, the College designated a new
Title III Project Director. However, as of the end of June 2003 the College had not requested
approval from ED for the change in the Title III Project Director, a key person specified in the
award.

According to the Business Office Manager, the College did not report a change in the Title III
Director due to an oversight on the part of the College. When the previous Title III Director
resigned, the College’s focus was to find a replacement and keep operations running properly. As
a result of not informing the program office of the change in Project Director, the College was not
in compliance with EDGAR.

RECOMMENDATION

We recommend that the Chief Financial Officer, in conjunction with the Assistant Secretary for
Postsecondary Education, require Stillman College to:

2.1 	   Inform the Title III program office of its change in Project Director and of any future
        changes in key personnel for its Title III grant in a timely fashion.

STILLMAN RESPONSE

The College will promptly notify the Title III program office when a new Title III Director is
assigned. The Title III program office was notified when the new Title III Director was hired.

OIG COMMENTS

The College needs to ensure that the Title III program office is timely notified of any future
changes in key personnel for its Title III grant.
Dr. Ernest McNealey                   FINAL REPORT                              Page 6 of 10
ED-OIG/A04-D0013




                                      BACKGROUND 


Stillman College is a four-year, private, non-profit, Historically Black College located in
Tuscaloosa, AL. The College was founded by the General Assembly of the Presbyterian Church
in 1875. The College is accredited by the Southern Association of Colleges and Schools. The
College has an enrollment of about 1,500 full-time students.

During the scope of this audit, the College received two 5-year Title III grants, the closed 1997-
2002 grant and the current 2002-2007 grant. According to the College’s approved Title III
budgets, the College was authorized a total of $7,618,303 for these Title III grants as of March 31,
2003, as follows:
   • 	 1997-2002 Grant (10/01/1997 – 09/30/2002) - $5,883,809
   • 	 2002-2007 Grant (10/01/2002 – 09/30/2007) - $1,734,494


                 OBJECTIVES, SCOPE, AND METHODOLOGY 


The audit objectives were to determine whether Stillman College complied with EDGAR and
Departmental laws and regulations regarding Title III cash management and grant expenditures.
Audit coverage included the period October 1, 1997, through March 31, 2003.

To accomplish the audit objectives, we performed the following:

• 	 Reviewed applicable regulations.
• 	 Reviewed the latest independent auditors’ OMB Circular A-133 audits and financial statements
    for the years ended June 30, 1999, 2000, and 2001.
• 	 Interviewed Department of Education Title III and Office of the Chief Financial Officer
    officials in Washington, DC.
• 	 Interviewed Stillman College officials responsible for cash management and grant
    expenditures.
• 	 Reviewed cash management procedures by verifying Stillman College records of fund receipts
    with the Department’s drawdown records in the Grants Accounting and Payment System
    (GAPS), comparing GAPS drawdown records to Stillman College total program expenditures,
    verifying that the College established ledger control accounts for Title III expenditures, and
    checking for any questionable funds transfers out of the Title III accounting ledgers.
• 	 Reviewed the College’s draw, posting, reconciliation, and performance reporting procedures
    for Title III funds.
• 	 Reviewed the College’s policies for inventorying computer equipment and long-term assets.
Dr. Ernest McNealey                   FINAL REPORT                              Page 7 of 10
ED-OIG/A04-D0013


• 	 Selected a random sample using dollar-unit sampling of 60 grant expenditures out of a universe
    of 1,894 transactions for all Title III activities from January 1, 2000, through March 31, 2003,
    including payroll and computer equipment expenses. Dollar-unit sampling produces a sample
    that determines through statistical methods a high dollar threshold and selects all transactions
    in a sample that are above that threshold. The remainder of the sample is chosen randomly.
    We used this type of sampling to ensure that we reviewed both relevant large dollar value
    transactions and a completely random set of transactions. The total dollar amount of the
    sample was $1,934,850 out of a universe amount of $4,575,110. By using dollar-unit
    sampling, we reviewed 42 percent of the total universe dollar amount, a much more significant
    amount than we could have reviewed by a simple random sample.
• 	 Verified that the selected grant expenditures were allowable, properly supported, and
    documented.
• 	 Verified that the goals and execution of the College’s Title III activities conformed with
    approved Title III applications, yearly budgets, and performance reports.

During the audit, we relied on computer-processed data contained in the College’s computerized
accounting system, Colleague. We used grant award and disbursement data from GAPS to
corroborate information obtained from Stillman College. We did this by comparing Department
records of program and grant awards, drawdowns, and disbursements with the College’s data. We
also held discussions with College officials to gain an understanding of the processes for
requesting and drawing down Federal funds, and for its accounting of revenue from Department
programs and grants. Based on these tests and assessments, we concluded that the College’s data
were sufficiently reliable for use in meeting the audit objectives.

Audit work was conducted during the period June, July, and August 2003. An exit conference was
held with Stillman College officials on August 28, 2003. The audit was performed in accordance
with generally accepted government auditing standards. Accordingly, the audit included such tests
of program and accounting records as considered necessary to meet the audit objectives.


                STATEMENT ON MANAGEMENT CONTROLS 


As part of our review, we assessed the system of management controls, policies, and practices
applicable to Stillman College’s administration of Title III cash management of funds and grant
expenditures. For the purposes of this report, we assessed and classified significant controls into
the following categories: drawdown of Title III funds, recording of Title III expenditures
(including reconciliation), and preparing Title III performance reports.

Due to inherent limitations, an evaluation made for the limited purposes described above would
not necessarily disclose all material weaknesses in the management controls. We identified no
significant deficiencies with preparing performance reports. However, our overall assessment
Dr. Ernest McNealey                  FINAL REPORT                             Page 8 of 10
ED-OIG/A04-D0013


disclosed management control weaknesses in each of the other control areas mentioned above.
These weaknesses are discussed in the AUDIT RESULTS section of this report.


                           ADMINISTRATIVE MATTERS 


If you have any additional comments or information that you believe may have a bearing on the
resolution of this audit, you should send them directly to the following Education Department
official, who will consider them before taking final Departmental action on this audit:

                Jack Martin 

                Chief Financial Officer      

                U.S. Department of Education 

                400 Maryland Avenue, SW, Room 4E313 

                Washington, DC 20202 


It is the policy of the U.S. Department of Education to expedite the resolution of audits by
initiating timely action on the findings and recommendations contained therein. Therefore, receipt
of your comments within 30 days would be greatly appreciated.

In accordance with the Freedom of Information Act (5 U.S.C. § 552), reports issued by the Office
of Inspector General are available to members of the press and general public to the extent
information contained therein is not subject to exemptions in the Act.

                                                    Sincerely,

                                                    /s/ J. Wayne Bynum

                                                    J. Wayne Bynum
                                                    Regional Inspector General
                                                    Region IV


Attachment
Dr. Ernest McNealey                                FINAL REPORT                                            Page 9 of 10
ED-OIG/A04-D0013


Attachment – Written Response to the Draft Report




               STILLMAN ~===



             J. Wayne Bynum
             Regional Inspector General for Audit
             U.S . Department of Education
             Office of Inspector Gencl1Il
             61 Forsyth Strec:t. Room 18171
             Atlanta. GA 30303

             Dear Mr. Bynum:

             Attached is a cop>, of !)tillman College' s response \0 th e Tille ill "Draft Audit Report"
             rindings.

             If you have any questions, please contact me at (205) 366·8868.




          if~Busine&S Manager




                                      PM' Offi« lin. IHn • Tu!........... AU!wn. 35403
                                                 T<lcphon< 20;; ·349·4140
Dr. Ernest McNealey                    FINAL REPORT                              Page 10 of 10
ED-OIG/A04-D0013


Attachment – Written Response to the Draft Report


                                  TITLE III OIG Audit Response 

                                       December 1, 2003 




      Finding No. 1 – The College drew down more Title III funds than it expended for
      the Title III Program activities

      The College has implemented procedures to ensure that Title III expenses and revenue
      are properly coded and recorded to the correct grant award year. As part of the new
      procedures, a monthly reconciliation is done [to] make certain that all funds drawn
      down reflect expenses paid or will be paid within three business days. In light of the
      fact that the Title III award year crosses the College fiscal year, a separate
      reconciliation spreadsheet is done for each award year; allowing the College to
      correctly match the expenses for a particular award year with funds requested.

      Between April 2000 and October 2001, the College incurred Title III expenditures in
      the amount of $326,887, which were paid with institutional funds. OIG determined that
      $238,027 was allowable Title III expenses. The College would like to know why the
      remaining $88,860 was disallowed.

      The College has asked its auditors to note the $731,102, which was taken off the ledger
      as part of the 2002 audit, as allowable expenditures for Title III in the 2003 audit reports.


      Finding No. 2 - The College did not inform the Title III Program Office of the
      change in key personnel.

      The College will promptly notify the Title III Program Office when a new Title III
      Director is assigned. The Title III Program Office was notified when [             ]
      was hired as the new Title III Director.
